Audit Report




OIG-11-063
SAFETY AND SOUNDNESS: Failed Bank Review of The First
National Bank of Barnesville
March 22, 2011




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                                  March 22, 2011


             OIG-11-063

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                  Jeffrey Dye /s/
                                    Director, Banking Audits

             SUBJECT:               Failed Bank Review of The First National Bank of Barnesville


             This memorandum presents the results of our review of the failure of The First
             National Bank of Barnesville (Barnesville). Barnesville was established in 1902. Its
             main office was located in Barnesville, Georgia, and it had one branch located in
             Zebulon, Georgia. The bank did not have a holding company. The Office of the
             Comptroller of the Currency (OCC) closed Barnesville and appointed the Federal
             Deposit Insurance Corporation (FDIC) as receiver on October 22, 2010. As of June
             30, 2010, the bank had $131.4 million in total assets. FDIC estimated that the loss
             to the Deposit Insurance Fund is $33.9 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Barnesville that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver and (2) interviewed an OCC problem bank
             specialist.

             We conducted this performance audit during November and December 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.

             Causes of Barnesville’s Failure

             OCC appointed FDIC as receiver based on the following grounds: (1) the bank
             experienced substantial dissipation of assets or earnings due to unsafe and unsound
OIG-11-063
Page 2

practice, (2) the bank was in an unsafe and unsound condition to transact business,
and (3) the bank’s capital was severely impaired.

The primary causes of Barnesville’s failure were its aggressive lending strategy that
focused on direct lending and participations in commercial real estate loans (CRE)
concentrated in its local market in Georgia, as well as in Alabama, Florida, and North
Carolina; and ineffective oversight by the board and management. For example,
management had an unreliable risk rating system, disregarded external loan review
decisions, and failed to document collateral support for real estate loans. The board
and management did not demonstrate the leadership or ability to correct serious
deficiencies in capital and strategic planning, credit administration, or liquidity risk
management. As a result, significant risks were not adequately identified, measured,
monitored, or controlled. By 2009, OCC determined Barnesville’s capital, asset quality,
management, earnings, and liquidity were critically deficient, which ultimately led to
its failure.

It should be noted that our review of Barnesville revealed certain questionable
transactions. We referred these matters to the Treasury Inspector General’s Office of
Investigation.

Conclusion

Based on our review of the causes of Barnesville’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of
Barnesville’s failure and that it had no concerns with our determination that an in-
depth review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-11-063

       Attachment 1
Management Response
                                                   OIG-11-063

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
